<html>
<title> - INTERNATIONAL MEGAN'S LAW TO PREVENT DEMAND FOR CHILD SEX TRAFFICKING; VENEZUELAN HUMAN RIGHTS AND DEMOCRACY PROTECTION ACT; AND CONDEMNING THE ABDUCTION OF FEMALE STUDENTS BY ARMED MILITANTS FROM THE TERRORIST GROUP KNOWN AS BOKO HARAM IN NORTHEASTERN PROVINCES OF THE FEDERAL REPUBLIC OF NIGERIA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
INTERNATIONAL MEGAN'S LAW TO PREVENT DEMAND FOR CHILD SEX TRAFFICKING; 
 VENEZUELAN HUMAN RIGHTS AND DEMOCRACY PROTECTION ACT; AND CONDEMNING 
                                  THE 
  ABDUCTION OF FEMALE STUDENTS BY ARMED MILITANTS FROM THE TERRORIST 
  GROUP KNOWN AS BOKO HARAM IN NORTHEASTERN PROVINCES OF THE FEDERAL 
                          REPUBLIC OF NIGERIA

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                  H.R. 4573, H.R. 4587 and H. Res. 573

                               __________

                              MAY 9, 2014

                               __________

                           Serial No. 113-166

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-839                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f687f604f6c7a7c7b676a637f216c606221">[email&#160;protected]</a>  

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 4573, To protect children from exploitation, especially sex 
  trafficking in tourism, by providing advance notice of intended 
  travel by registered child-sex offenders outside the United 
  States to the government of the country of destination, 
  requesting foreign governments to notify the United States when 
  a known child-sex offender is seeking to enter the United 
  States, and for other purposes.................................     2
  Amendment in the nature of a substitute to H.R. 4573 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    17
H.R. 4587, To impose targeted sanctions on individuals 
  responsible for carrying out or ordering human rights abuses 
  against the citizens of Venezuela, and for other purposes......    30
  Amendment to H.R. 4587 offered by the Honorable Matt Salmon, a 
    Representative in Congress from the State of Arizona.........    51
H. Res. 573, Condemning the abduction of female students by armed 
  militants from the terrorist group known as Boko Haram in 
  northeastern provinces of the Federal Republic of Nigeria......    53
  Amendment to H. Res. 573 offered by the Honorable Edward R. 
    Royce, a Representative in Congress from the State of 
    California, and chairman, Committee on Foreign Affairs.......    58

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    78
Markup minutes...................................................    79
Markup summary...................................................    81
INTERNATIONAL MEGAN'S LAW TO PREVENT DEMAND FOR CHILD SEX TRAFFICKING; 
 VENEZUELAN HUMAN RIGHTS AND DEMOCRACY PROTECTION ACT; AND CONDEMNING 
THE ABDUCTION OF FEMALE STUDENTS BY ARMED MILITANTS FROM THE TERRORIST 
  GROUP KNOWN AS BOKO HARAM IN NORTHEASTERN PROVINCES OF THE FEDERAL 
                          REPUBLIC OF NIGERIA

                              ----------                              


                          FRIDAY, MAY 9, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:14 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order. I am 
going to ask all the members if they could take their seats at 
this time.
    Pursuant to notice, we meet today to mark up three strongly 
bipartisan measures dealing with pressing humanitarian issues. 
Because these measures enjoy broad support and because we are 
looking at a short legislative day, the ranking member and I 
intend to consider them en bloc, as members were previously 
notified.
    And so, without objection, the following items, which all 
members have before them, are to be considered read and they 
will be considered en bloc: H.R. 4573, the International 
Megan's Law, this is authored by Mr. Smith; and the Smith 
Amendment No. 53, the bipartisan amendment in the nature of a 
substitute to H.R. 4573, provided to your offices last night; 
H.R. 4587, the Venezuela and Human Rights and Democracy 
Promotion Act, authored by Congresswoman Ros-Lehtinen; the 
Salmon Amendment No. 46 to H.R. 4587; and the third bill, House 
Resolution 573, condemning the abduction of female students by 
Boko Haram, authored by Congresswoman Frederica Wilson; and the 
Royce Amendment No. 105 to House Resolution 573.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Royce. So, without objection, all members may have 
5 days to submit statements for the record and any extraneous 
material on today's items. And after opening remarks by myself 
and the ranking member, I will be glad to recognize any member 
seeking recognition to speak on the en bloc items.
    This morning, we are considering Subcommittee Chairman 
Smith's H.R. 4573. It is the International Megan's Law to 
prevent demand for child sex trafficking.
    This bill deals with an issue I know all of us want 
desperately to address, the horrendous exploitation of children 
overseas by adults traveling for purposes of engaging in so-
called sex tourism. Unfortunately, this has become a growing 
industry in a number of countries which are ill-equipped to 
deal with an influx of child predators, including from the 
United States.
    This bill codifies existing law enforcement efforts to 
combat child sex tourism by establishing the Angel Watch Center 
within the Department of Homeland Security's Child Exploitation 
Investigation Center.
    The Angel Watch Center currently operates by combing 
through massive amounts of data from multiple agency sources to 
analyze foreign travel by convicted child sex offenders and 
determine whether notification to U.S. officials or foreign 
governments is warranted.
    This bill improves vastly the speed of the information that 
the center receives and the staffing at the center. Right now, 
there is one lady doing this, and it is often after the fact. 
This rectifies this, and it will allow the center to better 
detect and report the travel of child predators so that that is 
prevented.
    It also requires the center to maintain records of its work 
so that we have more information about how other countries are 
combating child sex tourism.
    Listen, I think all of us here who have worked with 
Congressman Smith over the years know we all owe him a debt of 
gratitude for his heartfelt commitment to this issue. And I 
want to thank him for his leadership and a longstanding 
dedication that I think has surpassed what anybody else has 
ever put into trying to track and do something about this 
issue.
    And I would note that there was very close collaboration 
with the Judiciary's majority and minority on this bill. And 
Ranking Member Engel and I look forward to working with our 
colleagues on this committee and the Judiciary Committee as we 
move forward to ensure that the bill's notification provisions 
are effective and satisfactory.
    Now, we also consider House Resolution 573 on the recent 
Boko Haram abductions. This Sunday is Mother's Day, but for 
hundreds of mothers in Nigeria this will be another day of 
horrendous grief. Their daughters are missing, kidnapped from 
school by an Islamist terrorist group. This resolution puts the 
committee firmly on record in condemning this atrocious 
abduction of nearly 300 schoolgirls.
    Many around the world are just learning of the evil of Boko 
Haram. Unfortunately for the communities in northern Nigeria, 
the terror there has existed for years. Sadly, Boko Haram lives 
up to its name. That name, translated loosely, is ``Western 
education is a sin.'' They have killed more than 600 students 
and teachers. They have destroyed some 500 schools. They have 
denied more than 15,000 young Nigerians an education. They have 
killed many other people, as well, but their focus has been on 
killing teachers and going after students and killing students 
or abducting them. Despite knowing the dangers, these young 
women were committed--they were all committed to their 
education, and they took that risk of trying to go to school.
    Boko Haram has been a focus of this committee, for which 
Subcommittee Chairman Smith and Ranking Member Bass deserve 
credit. Members will recall that it was pressure from this 
committee that was critical in convincing the State 
Department--forcing the State Department to designate Boko 
Haram as a terrorist organization; a foreign terrorist 
organization is the designation today. Indeed, the 
administration made that announcement in this room, under 
pressure from the members of this committee, and it should not 
have taken so long.
    Commanders at the Pentagon have stated that Boko Haram is 
``a threat to Western interests and one of the highest 
counterterrorism priorities in Africa.'' That is especially the 
case given Nigeria's position as the continent's most populous 
country and the largest economy in Africa.
    This resolution reaffirms our support for the assistance 
that the administration has offered to help the Nigerians find 
these girls, but more needs to be done. I am pleased that we 
are considering an amendment I have authored and the ranking 
member supports to encourage more aggressive assistance. It is 
clear the Nigerian forces are struggling in this fight. Direct 
U.S. security assistance, intelligence, and advisors in the 
field can make a big difference in rescuing these girls and 
combating this threat.
    Years ago, a key military assist from the British was key 
in ridding Sierra Leone of a rebel insurrection--if you 
remember, the Revolutionary United Front and the amputations of 
children that they used to conduct. More recently, French 
efforts in Mali have been key to combating that al-Qaeda threat 
there.
    Historically, the Nigerians have been reluctant to receive 
such outside aid. Luckily, that seems to be changing. We should 
be pushing on the Nigerian Government to accept as much help as 
they can to save these young women now and to eliminate the 
Boko Haram threat soon. This resolution is part of that push.
    And, lastly, we are also advancing H.R. 4587, to impose 
targeted sanctions on Venezuela's human rights abusers.
    Since February, thousands of student activists have taken 
to Venezuela's streets to highlight rampant crime and 
lawlessness. These peaceful protests have grown in size and 
frequency, and the response from the government, what has that 
been? President Maduro, who was Hugo Chavez's hand picked 
successor, has unleashed a heavy-handed and violent response 
that has resulted in many senseless deaths, countless 
casualties, and the jailing of thousands, including many senior 
opposition leaders.
    In fact, a new human rights report released this week found 
a ``pattern of serious abuse carried out repeatedly by multiple 
security forces in multiple locations.'' And just yesterday, we 
learned of fresh reports of hundreds of more students being 
rounded up and tossed in jail.
    This legislation imposes targeted sanctions on those 
individuals who have carried out human rights abuses or who 
ordered the violence against those peaceful protesters.
    While the Obama administration has been supporting 
political talks in Caracas, there unfortunately has been little 
progress there. If the Maduro government is to agree to true 
reforms to reverse the dissent, its leaders must feel the 
pressure. Targeting those officials who have directed this 
repression is a good place to start.
    Chairman Emeritus Ros-Lehtinen should be recognized for her 
efforts on this legislation. And I appreciate her and Chairman 
Salmon working in a bipartisan way with the Democratic members, 
Mr. Sires and other members here on this committee.
    I will now recognize our ranking member, Mr. Engel of New 
York, for his remarks.
    Mr. Engel. Mr. Chairman, thank you very much for holding 
today's markup on these important pieces of legislation and, as 
usual, for working with us in such a bipartisan manner.
    Firstly, I would like to commend our colleague, Mr. Chris 
Smith of New Jersey, for his leadership on anti-trafficking 
issues and for his hard work on H.R. 4573. There were a lot of 
negotiations going on with this bill, and Mr. Smith was of one 
purpose, wanting to have an effective law to combat child 
trafficking, and was willing to make the necessary compromises 
to truly receive bipartisan support for this bill. And so I 
commend him for his tenacity, his sincerity, and for his hard 
work.
    This legislation, called International Megan's Law, aims to 
prevent child sex offenders and traffickers from exploiting 
vulnerable children when they cross an international border.
    The reality is that some sex offenders are traveling 
overseas to exploit children in a practice known as sex 
tourism. In some of these countries, extreme poverty and 
inadequate law enforcement protocols enable sex offenders to 
continue their victimization of children, often unbeknownst to 
the local government or with local law enforcement turning a 
blind eye.
    International Megan's Law establishes an Angel Watch Center 
within Immigration and Customs Enforcement that would provide 
advance notice to foreign countries when a convicted child sex 
offender travels to that country. The bill also calls on the 
President to negotiate memoranda of understanding or other 
bilateral agreements with foreign governments that would 
encourage information-sharing on known child sex offenders.
    Worldwide, it is reported that over 2 million children are 
sexually exploited each year through trafficking, prostitution, 
and child sex tourism--2 million children. That is just 
staggering. We need to do all we can to encourage the 
international community to address this scourge.
    Mr. Chairman, I would like to thank you for working with us 
to move this important legislation forward. I also want to 
thank the Judiciary Committee for working with us in a 
bipartisan manner to come up with a practical and effective 
mechanism which will serve the twin goals of deterrence and 
prevention.
    I understand that there is one outstanding provision in the 
Judiciary Committee's jurisdiction regarding actual notice that 
will be worked out in good faith prior to floor consideration.
    Next, I would like to thank my good friend, Ms. Ros-
Lehtinen, for authoring the Venezuelan Human Rights and 
Democracy Protection Act. I have been privileged to work with 
her on this important legislation.
    It is very important. The eyes of the world are on 
Venezuela, as President Nicholas Maduro and his security forces 
crack down on peaceful protesters. It is an absolute tragedy 
that 41 people have been killed and over 100 injured in 
protests throughout the country.
    You know, I just came back from Ukraine with the chairman, 
and what is going on in Venezuela reminds me a lot of what was 
going on in Ukraine with the protests.
    I am grateful for President Obama and Secretary Kerry's 
strong statements condemning the Maduro government's 
reprehensible actions. At the same time, I am disappointed by 
the silence of OAS member-states, many of which suffered 
repression at the hands of their own governments in the not-so-
distant past.
    And while I am pleased that negotiations are under way 
between the Maduro government and segments of the opposition, I 
am concerned that not enough progress has been made.
    This bill has been crafted to impose targeted sanctions on 
human rights violators in Venezuela while not harming average 
Venezuelans, who are already suffering as a result of terrible 
economic mismanagement, first by Hugo Chavez and now Maduro.
    I hope that this committee and the House leadership will 
work closely with the State Department in determining when it 
is appropriate for this bill to be considered by the House of 
Representatives. When we return to Washington the week of May 
19th, I believe we should assess the state of negotiations 
between the Venezuelan Government and opposition and the 
situation on the ground in Venezuela before deciding whether to 
bring this bill before the full House.
    Again, I thank Ms. Ros-Lehtinen and Chairman Royce for 
their leadership on this important legislation, and I urge my 
colleagues to support its approval by the committee.
    Finally, I strongly support H. Res. 573, a resolution 
offered by our former committee colleague, Ms. Frederica Wilson 
of Florida. This important resolution condemns the abduction of 
more than 200 schoolgirls in northern Nigeria by the terrorist 
group Boko Haram, an act so heinous that it has even been 
criticized by some supporters of al-Qaeda.
    This is only the latest in a long string of grizzly and 
heartless attacks by Boko Haram, which has burned schools and 
killed students, attacked churches and mosques, murdered 
Christian and Muslim religious leaders, and set off bombs in 
the capital city of Abuja.
    H. Res. 573 strongly condemns the abduction of the girls 
and supports U.S. and international efforts to assist in their 
recovery.
    While I hope these efforts are successful, we must also 
recognize that Nigeria's approach to countering terrorism has 
not been very effective. There is extensive reporting on human 
rights abuses committed by the Nigerian military, which 
compound the fear experienced by citizens of the north and 
alienate the very community that could be providing valuable 
intelligence on Boko Haram.
    I hope the Nigerian Government will see this kidnapping as 
a wake-up call to reevaluate their counterterrorism strategy 
and that we can work with them to share expertise on civil and 
military relations and development for the long-neglected 
northern region of the country.
    In closing, I would like to again thank Chairman Royce and 
our colleagues on both sides of the aisle for working in a 
bipartisan way on these important pieces of legislation.
    Chairman Royce. Thank you, Mr. Engel.
    Do any members seek recognition to speak on any of the en 
bloc items?
    Congresswoman Ros-Lehtinen?
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. And 
thank you to our ranking member, Eliot Engel, for working with 
my office and Mr. Salmon's office and Mr. Sires to bring up 
this bill on the Venezuela situation to mark up this morning.
    I would like to recognize the many Venezuelan-Americans who 
have made a long trip from New York, Michigan, Ohio, Florida, 
to be here and to witness this day. And I would like to point 
out in the audience Maria Conchita Alonso, who is a wonderful 
actress. I loved her role in ``Moscow on the Hudson'' with 
Robin Williams. It is good to see her.
    Thank you all for being here.
    For 3 months now, as both of the gentlemen have explained, 
the Maduro regime in Venezuela has committed grave human rights 
violations as it seeks to muzzle the students who are peaceful. 
And they have been marching with a clear call; they are calling 
for the respect for human rights and democracy to really take 
hold in their nation. So far, there have been over 40 people 
killed, nearly 60 reported cases of torture, more than 2,000 
people unjustly detained, hundreds more injured.
    And let's look at what has happened just this week, Mr. 
Chairman and members. Just this week, 250 teenage protesters 
who had camped out in public squares to protest were rounded up 
at 3 o'clock in the morning yesterday. Also just this week, the 
Venezuelan intelligence agency picked up and has put in 
detention Rodrigo Diamanti, the leader of an NGO called Un 
Mundo Sin Mordaza, A World Without the Muzzle.
    Censorship continues. This week, another prominent 
independent radio program was pulled off the airwaves. This 
week, newspapers like El Universal are saying that they have 
about 2 weeks left of newsprint. Maduro has restricted 
newsprint coming into the country. The government has put many 
challenges in their way to provide information to the people of 
Venezuela.
    And, lastly, opposition leader Leopoldo Lopez was supposed 
to have his day in court yesterday, and all of a sudden his 
hearing was simply postponed without reason, without 
discussion, without explanation, simply canceled.
    All of this happened just this week.
    But even with all of this repression, Mr. Chairman, the 
students and the student unions on several campuses in 
Venezuela continue to show bravery and courage in standing up 
for democracy and for freedom of expression. That is all they 
are asking.
    Now, Mr. Chairman, Ranking Member, and members, some 
opponents of this legislation have claimed that we must give 
peace a chance, regarding the UNASUR talks. And just two notes 
about that.
    First of all, the violence is only on the government's 
side. The students are not the violent ones. Why create the 
violence and then say we have to have a dialogue for peace? 
Here is a solution for peace: Stop shooting the students.
    Also, the UNASUR team members are not honest brokers. They 
are in the pockets of Maduro, they are followers of Maduro. So 
how can you have any real discussion taking place there?
    And after several rounds of so-called negotiations, the 
talks have yielded no results. And it is not the U.S. that is 
derailing the process. Venezuelan leader Maduro and his goons 
are the ones that are derailing the process, because they have 
the weapons, and their allies, like the collectivos, are using 
them against the people, the unarmed, peaceful protesters.
    Other opponents believe that we should wait and see what 
the peace process can resolve. Well, I ask, when is it a good 
time? How many more people have to be innocently killed for the 
time to be right? It will never be right. Maduro is the one who 
is perpetrating the violence. It is simple.
    Another topic I would like to clear up is the authorization 
of funds in the bill. This is not new money. We already direct 
$5 million to civil society programs in Venezuela, so the bill 
just ensures that we do not fall below that number and that we 
do not preclude assistance for democracy and human rights 
issues, which is what it should do.
    And, again, I commend our committee. Thank you, Mr. Royce, 
our chairman, for your leadership. Thank you, Mr. Engel and Mr. 
Salmon and Mr. Sires, for shining a light on the atrocities 
committed in Venezuela.
    I urge my colleagues to support the bill. The Venezuelan 
people are counting on your support.
    Thank you, Mr. Chairman.
    Chairman Royce. Other members seeking time?
    Mr. Meeks?
    Mr. Meeks. Thank you, Mr. Chairman.
    First, let me give a word on and thank Ms. Frederica Wilson 
for her resolution on Boko Haram.
    You know, being the father of three daughters, this is just 
unbearable. And it is time for the world to unite to make sure 
that those young girls are returned home and that, also, those 
that committed this heinous act is brought to justice.
    And this bill, this resolution, joins with the rest of the 
world, the focus that should be on this horrendous group that 
now has killed and has these almost 300 young girls and a 
number of others that they have killed, as the chairman 
indicated in his opening statement. I know of young boys that 
have been murdered. This resolution is timely, and I highly 
support it.
    I also thank Mr. Smith, because we do have to--you know, 
one of the most heinous acts is these sex crimes that is going 
across borders and all over our place that we call Earth. It is 
timely, and it is a resolution that I strongly support.
    Moving on to H.R. 4587, the Venezuelan Human Rights and 
Democracy Protection Act. Let me first say that I am deeply 
troubled by the violence that erupted in Venezuela at the onset 
of protests months ago and that I join the people of Venezuela 
in mourning the loss of so many lives. I remain committed to 
doing everything in my power to support a positive outcome in 
that nation for its people.
    However, I strongly oppose H.R. 4587, and I believe 
vehemently that unilateral action is not the answer. This bill 
does not advance U.S. interests, it will not help the people of 
Venezuela, and it sends the message to our regional allies that 
we don't care much about what they think.
    Moreover, the Obama administration has the authority to do 
what this bill calls for and has shown its willingness to use 
its authority. So, then, what is our objective? Is this 
intended to push Venezuela to the brink? What would that do for 
the Venezuelan people?
    I have had the opportunity to speak with most of our major 
allies in the region and all of Venezuela's neighbors, who are 
our allies, and I have yet to hear any support for sanctions. 
But there is strong support for multilateral engagement. Our 
allies do not want to see the situation in Venezuela worsen.
    The unilateral sanctions bill we are considering this 
morning is misguided. It is, in fact, an unfortunate reminder 
of the history of the United States' arrogance in the Western 
Hemisphere. We have a legacy in the Americas that is riddled 
with the long-lasting consequences. That legacy left us with a 
trust deficit. Today, we are considering a bill that does 
nothing to help build trust. Our standing in our own hemisphere 
will never improve unless or until we build that trust.
    While we pursue these sanctions, our allies are actively 
supporting dialogue. Members of this very committee have made 
it a point to denounce and even condemn regional organizations, 
yet, one of those organizations has managed to be the 
facilitator of engagement between some in the opposition and 
the Government of Venezuela. We don't know yet if the UNASUR's 
mediation will lead to effective dialogue, but the effort does 
deserve a chance to succeed. It is my sincere hope that those 
talks are successful, but at moments like this, I wonder if we 
prefer that dialogue fails.
    Unilateral sanctions would be another policy mistake, I 
believe a very costly policy mistake. We must learn to work 
with our allies and individuals in the region and work 
collectively on this hemisphere and not be unilateral actors 
which further isolates us and causes us to have problems with 
our allies.
    And I yield back the balance of my time.
    Mr. Royce. We go now to Mr. Chris Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I want to thank you, Chairman Royce, for not only 
scheduling this, but being so supportive and our staff. You 
know, we had 12 staffers working on this, both sides of the 
aisle, 3 committees, Homeland Security and Judiciary and, of 
course, our own Foreign Affairs staff. So I want to thank you. 
And the best legislative counsel on the Hill, Mark Synnes, did 
a wonderful job, did multiple, multiple rewrites, and I want to 
thank him, as well.
    This truly is a bipartisan bill. And to remind some members 
who may have not have been here years ago, we did pass the 
International Megan's Law back in 2010, and, like so many of 
our initiatives, it died in the Senate and never even got a 
vote. So hopefully this one will speed to passage over in the 
other body.
    You know, the idea actually came from a meeting that I had 
with members of the TIP, Trafficking in Persons, from Thailand 
back in 2007. As I often do, I meet with people as they are 
traveling in particularly countries that are on watch lists or 
Tier 3, and I ask them, if you knew that a convicted pedophile, 
a felon, was coming to Bangkok or Phuket or anywhere else in 
Thailand, what would you do? They said, they wouldn't get a 
visa, and if they got in, we would watch them like a hawk. That 
afternoon, we began putting a framework together for an 
International Megan's Law.
    I would note parenthetically that Megan Kanka, the precious 
little 7-year-old who was brutally killed by a pedophile who 
lived across the street from her--nobody knew this man had been 
convicted, had spent time in prison for sexually abusing 
children--he lured this little 7-year-old, Megan Kanka, into 
his home, brutally raped her, and then killed her. And that led 
to the explosion; now all 50 States and all the territories 
have a Megan's Law, a registry that has made a serious 
difference in preventing the impunity and the secrecy with 
which these people operate.
    International Megan's Law would notice countries of 
destination, stand up the Angel Watch Program. We have worked 
with ICE and others who have done a great job but with 
extraordinarily limited resources. There was a case out in 
California where they had actionable information of several 
pedophiles heading to South Korea. They noticed South Korea, 
and they didn't let them in, so these men were unable to abuse 
little children in Korea.
    The legislation also seeks to establish a reciprocity, not 
unlike what we did with the Trafficking Victims Protection Act 
back in 2000. We want Megan's Law everywhere. There are some 
places, like the UK, that has a Megan's Law. But we don't want 
pedophiles coming here--again, convicted, not the allegation, 
these are convicted individuals--to abuse our children.
    There needs to be a watch attitude globally, and that plays 
into one major three P's of all efforts that we do on 
trafficking: Prevention, prosecution, and protection. This will 
prevent. This could have a serious chilling effect on all of 
this.
    Finally, and I thank my two distinguished colleagues for 
explaining what is in the bill, so I won't repeat all of that. 
But in 2010 GAO found that in 2008 some 4,500 U.S. passports 
were issued to registered sex offenders. And these men travel, 
and they travel under secrecy, and they abuse little boys and 
little girls, then come back and go back to their jobs, 
whatever else they do. So this, hopefully, will at least act as 
a deterrent.
    Finally, just let me say, Mr. Chairman, very, very briefly 
on the issue of Boko Haram, we have had several hearings on 
Boko Haram and have raised repeatedly with the administration 
and, finally, in November, they actually did it, and that was 
to designate Boko Haram as a Foreign Terrorist Organization.
    Greg Simpkins, our staff director, and I traveled there in 
September of last year. We went to a place called Jos. Jos is a 
place where Boko Haram had fire bombed churches and killed 
people. We met with the people who had been the survivors. And 
we learned, frankly, after meeting with the imam and others, 
that it is not just Christians that they target, they target 
Muslims as well. I had heard that, but we heard it in great 
detail while he were there.
    These people are pathological. They are killers. They are 
like Joseph Kony. And, Mr. Chairman, you have done so much on 
trying to combat that man, who has killed so many and allowed 
his people to rape so many girls, particularly young girls.
    So this legislation, I think, helps put us all on record to 
express our outrage. It is good, I think, that the 
administration has deployed a number of people, including the 
head of AFRICOM, FBI, Justice, USAID and the human rights 
bureau, they are en route as we talk and as we meet.
    And hopefully there will be an all-out global effort. The 
French have stepped up, many European countries, the UK. China 
has even signaled their concern about this. So I think, 
hopefully, those girls will be rescued and brought back to 
their grieving parents.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Smith.
    We go now to Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman.
    Let me first start by recognizing the hard work of 
Frederica Wilson from Florida and my colleague from New Jersey, 
Chris Smith. I have known Chris Smith many years, and this is a 
passion of his. And I am very proud of the fact that he 
represents New Jersey, and especially his hard work on sex 
trafficking.
    And of course, I would be remiss if I didn't mention my 
colleague from Florida, Ileana Ros-Lehtinen and her hard work 
that she has always, always put forward in efforts like this.
    And, Mr. Chairman, I thank you for holding this markup, for 
holding this markup and authorizing the administration to 
impose targeted sanctions on individuals responsible for 
ordering and carrying out the unwarranted violence against 
anti-government demonstrators in Venezuela that began 3 months 
ago.
    Since the anti-government protests began in February, at 
least 41 people have died. Hundreds have been jailed, beaten, 
and injured at the hands of Venezuela's Government forces and 
armed supporters as they express their frustration to the 
deteriorating conditions in their country. Just this week, 
Human Rights Watch released a scathing report detailing the 
oppressive tactics by security forces in pro-government armed 
groups against demonstrators while noting the implicit nature 
of government prosecutors in and judges tolerating abuse and 
authorizing detentions.
    While Mr. Maduro has engaged in mediation talks with the 
opposition, such talks have thus far been of little substance. 
More importantly, however, promising these talks are, they do 
not exonerate the ruthless acts of violence and human rights 
abuses that have been carried out against the demonstrators.
    This bill, which I proudly support, is a testament that the 
United States will not condone acts of aggression limiting the 
freedom of expression and assembly in our hemisphere. And it 
equips the administration with the appropriate tools necessary 
to act accordingly.
    I thank Chairman Royce, Ranking Member Engel, and Ileana 
Ros-Lehtinen for their leadership and their steadfast efforts 
in advancing this bill, which I urge my colleagues to support.
    Thank you.
    Chairman Royce. Mr. Rohrabacher, are you seeking 
recognition?
    Mr. Rohrabacher. Yes, I am.
    Chairman Royce. Mr. Rohrabacher of California.
    Mr. Rohrabacher. I would yield 1 minute of my time to Mr. 
Smith.
    Mr. Smith. I will only take about 30 seconds.
    I just wanted to make clear to some of our friends on the 
Democratic side and on the Judiciary Committee, again, they 
have worked very closely with us. But I would commit to working 
with him toward an additional amendment before the bill gets to 
the floor that would alert the child sex offenders when they 
arrive at the airport of Angel Watch's notification action, so 
they are fully apprised about what has happened regarding them. 
So that would be something we would do. 
    Mr. Rohrabacher. Thank you. Yes.
    I would like to rise in support of this amendment. All 
three of them are fine examples of legislation based on those 
moral values that guide all of us here, and that we are so 
proud of that America officially stands behind.
    Especially, I would like to thank Ms. Ros-Lehtinen for her 
leadership in providing us a vision of what goes on in 
Venezuela and Cuba and other countries where we have such 
repression.
    President Maduro is obviously synonymous with repression, 
corruption, the impoverishment of his people, cronyism, 
brutality, and, yes, even murder. And we join today, we join 
the people of Venezuela, in demanding a respect for human 
rights and, yes, demanding them--demanding with them free and 
fair elections to try to make sure that this malady that they 
suffer will be removed from them.
    I commend you very much and commend my colleagues for 
supporting this legislation which will hold accountable people 
who are committing crimes against their own people, and in this 
case, in Venezuela.
    I would hope that we all are committed to those principles. 
But we use this as a vehicle, number one, holding those who are 
committing the crimes accountable. But also reaffirming that 
human rights and the democratic process unite the people of the 
world. And how this issue should be solved eventually will be a 
democratic election in which we enjoin the people of Venezuela 
to help them ensure that, as we did in OSCE and various 
elections in Europe, ensure that there is a democratic and free 
and honest process for people to choose their own government, 
which is, of course, the basis of what we believe as Americans.
    Thank you very much, Ms. Ros-Lehtinen.
    Chairman Royce. We go now to Mr. Ted Deutch from Florida.
    Mr. Deutch. Thank you, Mr. Chairman. And thank you very 
much for holding today's markup.
    I also would like to commend Mr. Smith for his important 
legislation combating sex trafficking. Would like to commend 
Ms. Wilson for her resolution that aims to take on the tough 
issue of the abductions of these female students by Boko Haram, 
which is a terrorist organization. Any time we have an 
opportunity to stand up against terror and stand up in support 
of children's rights, we should do it.
    But I really want to thank my friend and colleague, the 
chairman emeritus, Ileana Ros-Lehtinen, for her work in moving 
the Venezuela Human Rights and Democratic Protection Act 
forward and for doing it swiftly and for being such an 
important voice for the people of Venezuela.
    I am proud to be an original cosponsor of this legislation. 
This bill will empower the administration with tools to crack 
down on egregious human rights abuses taking place against 
those seeking basic freedoms in Venezuela. People in Venezuela 
have the democratic right to freedom of speech, the democratic 
right to freedom of assembly, the democratic right to due 
process, and the Democratic right to a responsive government. 
Tragically, the Maduro regime has trampled over each of these 
rights in what was recently deemed a pattern of serious abuses.
    This government has continued its repressive policies. 
Journalists are censored, imprisoned; opposition politicians 
are intimidated and arrested; and protesters are subjected to 
serious abuses, torture, and even death. And for what? Simply 
because the people of Venezuela are demanding greater security 
in a country with the fifth highest murder rate, where 2,500 
people were murdered for the first 2 months of 2014? Or is it 
because people are suffering from serious food scarcity and 
lack of access to basic supplies, since Venezuela experienced 
an inflation rate of 56 percent in 2013?
    These are simple, basic demands from the citizens of a 
democratic state. The unlawful and unjust use of force cannot 
be tolerated. There is no justification for the abusive tactics 
used by the security forces against mostly nonviolent, unarmed 
protesters. It is especially alarming that demonstrators are 
also being targeted by pro-government civilian gangs, 
collectivos, that use aggressive crackdown tactics.
    And with the judiciary clearly in the pocket of President 
Maduro, these collectivos and the country's security forces 
have been free to repeatedly commit human rights abuses with 
impunity. This behavior exposes the true colors of the Maduro 
regime. It serves its own interests, ignoring the cries of its 
people. And it will use any means to silence dissent and to 
retain power.
    I strongly support the bill before us today that would 
impose sanctions on individuals that have contributed in any 
way to the violent crackdown. I thank the administration's 
strong stance on this issue. And I believe this that bill will 
provide more diplomatic tools for the administration to 
convince Maduro to reach a peaceful resolution with the 
protesters, with the Venezuelan people.
    The voices of the people must be heard. And their 
fundamental freedoms must be protected. We must make clear to 
President Maduro and his cronies that he has got to respect the 
democratic rights of all Venezuelans and protect them from the 
undue suppression of these rights.
    There are a lot of issues that we grapple with around the 
world that all fight for our attention. But human rights 
matter. They matter to us and they matter to us wherever those 
rights are trampled anywhere in the world. This is not an issue 
that the Venezuelan people alone care about, that Venezuelan-
Americans alone care about. This is an issue that if we care 
about those democratic ideals that we like to talk about time 
and time again in this Congress, then we should all care about 
it. That is what this bill does.
    I commend my good friend. It is not that long ago that we 
first learned of the SOS Venezuela sign. The people of 
Venezuela have sent us an SOS signal, and today will be the 
first step in a serious way that this Congress will respond.
    Thank you and I yield back.
    Mr. Royce. Mr. Salmon of Arizona.
    Mr. Salmon. Thank you, Mr. Chairman.
    I want to thank very much the gentlewoman from Florida for 
doing such a wonderful job and always standing on the side of 
right and freedom and liberty.
    And, Mr. Chairman, I want to thank you very, very much for 
holding this markup. I want to thank the ranking member, Mr. 
Engel, for this truly bipartisan effort. And for those that are 
watching this hearing out in America and across the world, this 
is the most bipartisan committee I think that exists in the 
entire Congress. And it is such a tribute, I think, not just to 
the chairman, but to the ranking member and all the members of 
this panel that have realized that one of the things we try to 
do is enact that adage that partisanship ends at the water's 
edge. And when we are fighting for America, we are fighting for 
the principles that we believe in. We are fighting for justice 
and we are fighting for hope that we unify. And that is a good 
thing.
    I hear some say that maybe we could just accomplish what we 
need to with dialogue. Dialogue doesn't get it done. And that 
is why when it comes to causes of human suffering and basic 
human freedom and human rights, this committee has tried to be 
very, very clear time and time again anywhere on the globe that 
we stand for freedom and we stand for basic human dignity. And 
I think that is a good thing.
    I would like to thank the members on the committee that 
helped me with the technical amendments. Mr. Meadows, Mr. 
Grayson, and Mr. Connolly. I want to thank them for their 
commitment to this truly bipartisan effort.
    And I am really pleased to be an original cosponsor of this 
piece of legislation, which seeks to send an important message, 
that the United States will always stand with those that seek 
freedom.
    For months, we have seen the Government of Venezuela use 
violent tactics to crush legitimate student protests and 
silence opposition, killing up to 41 Venezuelan citizens and 
improperly detaining protesters without due process. And 
according to Human Rights Watch, there are at least 10 reported 
cases of protester detention that could be classified even as 
torture. And even children have been picked up and subjected to 
invasive and humiliating body searches.
    The comprehensive report released this week found 
compelling evidence of serious human rights violations, 
including torture and cruel, degrading treatment. Citizens shot 
with rubber bullets, some at point blank. I believe that due 
process rights have been blatantly denied, and the Venezuelan 
judiciary has been knowingly complicit.
    Just yesterday, government thugs and security forces were 
at it again when at 3 o'clock a.m., they invaded several camps 
and arrested several students assembled for continued peaceful 
protests against the government's civil and human rights abuses 
and mismanagement of Venezuela's floundering economy.
    Mr. Chairman, this violence and repression has gone on way 
too long. And it is happening right here in our own hemisphere. 
And while we see a lot of folks talking about all the different 
things happening in our globe, shouldn't we be a little bit 
more cognizant of what is happening in our own neighborhood? 
This is horrendous. And if we don't stand against these 
atrocities in a big way, a big way, then what do we stand for?
    I want to yield back my time.
    Chairman Royce. We go now--well, before I go to our next 
speaker, I have heard that the last votes on the floor have 
been moved up. They have moved up to about 11:10. And so we 
will need to move to a final vote before that.
    So let's see how many speakers we can fit in the next 10 
minutes or so. But remember all members have leave to put 
statements in the record if you so wish.
    I think we go now to Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Engel for your leadership and for continuing 
to lead this committee in a bipartisan manner and for marking 
up these important bills this morning.
    I would like to begin by recognizing the work of chairman 
emeritus, Congresswoman Ros-Lehtinen, and thank her for her 
strong leadership throughout this ongoing crisis in Venezuela. 
And today's markup shows that this committee is committed to 
protecting human rights in all regions of the world and doing 
so in a swift, targeted, and effective way.
    The Maduro regime has engaged in pervasive, hideous human 
rights violations, and we must add our voices loudly in 
condemning this and do all that we can to impose costs for 
those responsible as the best way really to end these 
practices.
    And I really just want to thank my colleague for her great 
work and for her leadership.
    As a member of the African Subcommittee, I would also like 
to thank the committee for scheduling a vote on H. Res. 573 in 
a timely manner, acknowledging extraordinary leadership of 
Frederica Wilson, my colleague from Florida, and our Ranking 
Member Karen Bass, in moving forward with this resolution.
    Abducting innocent young girls and forcing children into 
marriage or slavery is unconscionable, and no child in any part 
of the world should live in fear of that kind of treatment. We 
have to send a strong message to Boko Haram that these heinous 
acts and their other terrorist activities are unacceptable, and 
we must be united in strongly condemning them in the strongest 
terms.
    In addition, I want to end by thanking my colleague 
Congressman Smith for the legislation which is before us today. 
As we all agree, subjecting children to the kind of inhumane, 
unconscionable, and unforgivable consequences of sexual 
exploitation is an issue of great concern to this entire 
committee, but something Mr. Smith has really led on for many, 
many years. And I applaud him for that effort and applaud him 
for this legislation today, which will help to protect 
presumably thousands, and maybe even millions of children all 
over the world from this kind of violence.
    And I thank you again, Mr. Chairman and the ranking member, 
for bringing these three bills to the committee and look 
forward to supporting all three. And I yield back.
    Chairman Royce. Thank you, Mr. Cicilline.
    We are going to go first to Congressman Steven Stockman of 
Texas and then Congresswoman Karen Bass of California.
    Mr. Stockman. Mr. Chairman, I know we are getting ready to 
vote, so I just want to say something quickly.
    Venezuela is a nation that has an abundance of oil. And 
also had an abundance of middle class. And under this socialist 
policy, they have destroyed the middle class and destroyed a 
nation. They can't even get toilet paper now, they have a 
shortage of toilet paper, let alone newspaper print. And we are 
getting blamed up here in the United States for making it 
happen. That's nonsense.
    I think we need to take action. We don't need any more 
talk. They have had enough talk. The people are suffering. We 
need to take action. And I'm sorry for my colleagues' viewpoint 
and disappointed in that viewpoint. But I feel the pain in 
Venezuela. It is wrong what is happening to those people, and 
we need to stand up and be vocal about it and not be silent. So 
I am glad this committee is doing this. And I appreciate the 
chairman's action.
    Also on our friends that are in Nigeria, people forget they 
locked, before the kidnapping, they locked young children in a 
building and burned them to death. This is something we need to 
take action. If anybody has a heart, look around the world. 
United States is a leader. I am tired of leading from behind.
    I yield back.
    Mr. Royce. We are going to go to Karen Bass of California.
    Ms. Bass. Thank you very much, Mr. Chair and Ranking Member 
Engel. Thank you always, just as my colleague just mentioned, 
for such a bipartisan way that you conduct this committee.
    I do want to say that I have a lot of concern about what is 
going on in Venezuela. But I am concerned that we might be 
acting a bit prematurely, especially since the administration 
has said that this might be a little premature, as well as 
other countries in Latin America. But I want to acknowledge the 
continued and tireless work in Chairmen Royce and Smith in 
combating human trafficking around the world.
    I have had the great privilege to work with both of them on 
this issue, and the bill before us today is just one example of 
the work that can be done to protect people around the world 
from trafficking and sexual assault. I look forward to 
continuing to work with all of my colleagues on this important 
issue.
    Secondly, I want to thank the chairman and ranking member 
as well as Chairman Smith and Ros-Lehtinen, and my good friend 
Frederica Wilson for all of their hard work on the important 
bill condemning the abduction of female students by the armed 
militants from the terrorist group Boko Haram. And as was 
mentioned by the previous speaker, we know that the kidnapping 
of the girls has been heinous. However, we also know that Boko 
Haram has been slaughtering male students and conducting 
suicide bombings in the Nigerian capital of Abuja as well as 
many other parts of northern Nigeria.
    It is imperative that the U.S. Congress condemns Boko Haram 
and its violent acts in the strongest terms and supports the 
people of Nigeria and the parents of the abducted girls with 
calls for their immediate return. It is my hope that this 
legislation will lay the groundwork to not only bring back the 
kidnapped girls, but also, if anything can come out of this 
tragedy, it is my hope that this begins to mark the end of Boko 
Haram, now that the rest of the world is aware of their terror.
    Thank you very much. I yield back the balance of my time.
    Chairman Royce. We are going now to Randy Weber of Texas, 
followed by Joaquin Castro of Texas.
    Mr. Weber. Thank you, Mr. Chairman. I am disappointed to 
hear that there is reluctance on some of our colleagues' part 
to take the lead on this and act unilaterally. You know, 
sometimes when you wanted to lead the orchestra, you have to 
turn your back on the crowd.
    We should take the lead on this and step out and do the 
right thing and denounce this and make sure that this is 
condemned everywhere we see it. And I commend the chair and I 
commend you all for bringing this up and I fully support it. 
Thank you.
    Chairman Royce. Mr. Castro.
    Mr. Castro. Thank you, Chairman, and thank you to all my 
colleagues who worked on these three resolutions.
    With respect to the Venezuela resolution, thank you, 
Congresswoman Ros-Lehtinen, for your work. You know, the United 
States, one of our jobs around the world is to make sure that 
we stand for democracy and for human rights. And that is 
without regard to what kind of political leaders are 
perpetrating human rights abuses, whether it is fascist 
dictator or a Communist leader, we have got to stand up to 
them.
    And too often, we have not attended enough to issues in 
Latin America. There are things that happen in Latin America 
that, if they happened in another part of the world, we would 
jump on them more quickly. So I think this is, quite frankly, 
long overdue.
    And I do think that there is merit to the concern that Mr. 
Meeks raised that there is a process, in other words, this is a 
more aggressive step that usually we have done--we have done--
in other parts of the world, we would have done other things 
first. But the fact is now this has gone on for months. And so 
we must act swiftly at this point.
    And I want to say, particularly with respect to Latin 
America, first, we realize that each of these countries is 
unique and different. But we also can't overlook that the 
history of the region and the fact that in the 1970s and '80s 
you had leaders who disappeared thousands and thousands of 
people throughout Latin America. And we can never let that 
happen again.
    So we have to be swift in condemning it and making sure 
that they know that the United States will take real action.
    With respect to the resolution that Mr. Smith put forward 
on sex trafficking and sexual tourism, thank you, Mr. Smith, 
for your work on that. The one, I guess, thing that I would 
suggest is that on the Angel Watch Center on the leadership 
that we include somebody from the Justice Department, if we 
could. That we include someone from the Justice Department on 
that Angel Watch Center. Right now, it is ICE. And I think 
border patrol. That would be my one suggestion. If we could 
work with you on that.
    Thank you all very much.
    Chairman Royce. So duly noted.
    Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. And I am in agreement 
with all these on H.R. 4587, support for Venezuela. As some of 
the members have mentioned that we are acting too fast, I want 
to remind them that this is not something that happened 
overnight. This has been a 15-year process when Hugo Chavez 
stepped in. And it is time to act.
    H.R. 4573, protect children from exploitation. Strong 
support of that.
    H.R. 573. This is a time to stand up to the Boko Haram in 
renouncing what they have done.
    And I think these are all important bills. And they can be 
summed up best by what Martin Luther King said, ``Injustice 
anywhere is injustice everywhere.''
    And I would like to add to that that tolerance of injustice 
anywhere would be tolerance of injustice anywhere, or 
everywhere. And this is a time for us to act, and I am proud to 
be on this committee. And that is all I have to say, and I 
yield back.
    Chairman Royce. Any other members seeking to be recognized?
    If not, hearing no other speakers or no requests, the 
question occurs on the items considered en bloc.
    All in favor, say aye. Aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. And the 
measures considered en bloc, H.R. 4573, H.R. 4587, and House 
Resolution 573, are agreed to as amended. And without 
objection, each of the measures as amended is ordered favorably 
reported as a single amendment in the nature of a substitute.
    Staff is directed to make any technical and conforming 
changes. And that concludes our business for today. I want to 
thank Ranking Member Engel and all of our committee members for 
their contributions and assistance in this markup.
    The committee is adjourned.
    [Whereupon, at 11:09 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 <F-dash>\<Hoarfrost><brit-pound><acctof><acctof>a<natural><variable>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
